<html>
<title> - PILOT FLIGHT AND DUTY TIME RULE</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                    PILOT FLIGHT AND DUTY TIME RULE

=======================================================================

                               (111-135)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                                AVIATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           September 16, 2010

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure




                  U.S. GOVERNMENT PRINTING OFFICE
58-300                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1275627d52716761667a777e623c717d7f3c">[email&#160;protected]</a>  


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             VERNON J. EHLERS, Michigan
JERROLD NADLER, New York             FRANK A. LoBIONDO, New Jersey
CORRINE BROWN, Florida               JERRY MORAN, Kansas
BOB FILNER, California               GARY G. MILLER, California
EDDIE BERNICE JOHNSON, Texas         HENRY E. BROWN, Jr., South 
GENE TAYLOR, Mississippi             Carolina
ELIJAH E. CUMMINGS, Maryland         TIMOTHY V. JOHNSON, Illinois
LEONARD L. BOSWELL, Iowa             TODD RUSSELL PLATTS, Pennsylvania
TIM HOLDEN, Pennsylvania             SAM GRAVES, Missouri
BRIAN BAIRD, Washington              BILL SHUSTER, Pennsylvania
RICK LARSEN, Washington              JOHN BOOZMAN, Arkansas
MICHAEL E. CAPUANO, Massachusetts    SHELLEY MOORE CAPITO, West 
TIMOTHY H. BISHOP, New York          Virginia
MICHAEL H. MICHAUD, Maine            JIM GERLACH, Pennsylvania
RUSS CARNAHAN, Missouri              MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          JEAN SCHMIDT, Ohio
TIMOTHY J. WALZ, Minnesota           CANDICE S. MILLER, Michigan
HEATH SHULER, North Carolina         MARY FALLIN, Oklahoma
MICHAEL A. ARCURI, New York          VERN BUCHANAN, Florida
HARRY E. MITCHELL, Arizona           BRETT GUTHRIE, Kentucky
CHRISTOPHER P. CARNEY, Pennsylvania  ANH ``JOSEPH'' CAO, Louisiana
JOHN J. HALL, New York               AARON SCHOCK, Illinois
STEVE KAGEN, Wisconsin               PETE OLSON, Texas
STEVE COHEN, Tennessee               TOM GRAVES, Georgia
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan
BETSY MARKEY, Colorado
MICHAEL E. McMAHON, New York
THOMAS S. P. PERRIELLO, Virginia
DINA TITUS, Nevada
HARRY TEAGUE, New Mexico
JOHN GARAMENDI, California
HANK JOHNSON, Georgia

                                  (ii)

  
?

                        Subcommittee on Aviation

                 JERRY F. COSTELLO, Illinois, Chairman

RUSS CARNAHAN, Missouri              THOMAS E. PETRI, Wisconsin
MICHAEL E. McMAHON, New York         HOWARD COBLE, North Carolina
PETER A. DeFAZIO, Oregon             JOHN J. DUNCAN, Jr., Tennessee
ELEANOR HOLMES NORTON, District of   VERNON J. EHLERS, Michigan
Columbia                             FRANK A. LoBIONDO, New Jersey
BOB FILNER, California               JERRY MORAN, Kansas
EDDIE BERNICE JOHNSON, Texas         SAM GRAVES, Missouri
LEONARD L. BOSWELL, Iowa             JOHN BOOZMAN, Arkansas
TIM HOLDEN, Pennsylvania             SHELLEY MOORE CAPITO, West 
MICHAEL E. CAPUANO, Massachusetts    Virginia
DANIEL LIPINSKI, Illinois            JIM GERLACH, Pennsylvania
MAZIE K. HIRONO, Hawaii              CHARLES W. DENT, Pennsylvania
HARRY E. MITCHELL, Arizona           CONNIE MACK, Florida
JOHN J. HALL, New York               LYNN A. WESTMORELAND, Georgia
STEVE COHEN, Tennessee               JEAN SCHMIDT, Ohio
LAURA A. RICHARDSON, California      MARY FALLIN, Oklahoma
JOHN A. BOCCIERI, Ohio               VERN BUCHANAN, Florida
NICK J. RAHALL, II, West Virginia    BRETT GUTHRIE, Kentucky
CORRINE BROWN, Florida
ELIJAH E. CUMMINGS, Maryland
JASON ALTMIRE, Pennsylvania
SOLOMON P. ORTIZ, Texas
MARK H. SCHAUER, Michigan
JOHN GARAMENDI, California
DINA TITUS, Nevada
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Alterman, Stephen A., President, Cargo Airline Association.......     5
Belenky, Gregory, M.D., Research Professor and Director, Sleep 
  and Performance Research Center, Washington State University...     5
Brooks, A. Oakley, President, National Air Carrier Association...     5
Gilligan, Hon. Margaret, Associate Administrator for Aviation 
  Safety, Federal Aviation Administration........................     5
Hendricks, Thomas L., Vice President, Operations and Safety, Air 
  Transport Association of America, Inc..........................     5
Prater, Captain John, President, Air Line Pilots Association, 
  International..................................................     5

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Cohen, Hon. Steve, of Tennessee..................................    68
Costello, Hon. Jerry F., of Illinois.............................    69
Mitchell, Hon. Harry, of Arizona.................................    74
Oberstar, Hon. James L., of Minnesota............................    75
Richardson, Hon. Laura, of California............................    80

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Alterman, Stephen A..............................................    83
Belenky, Gregory, M.D............................................   113
Brooks, A. Oakley................................................   153
Gilligan, Hon. Margaret..........................................   158
Hendricks, Thomas L..............................................   169
Prater, Captain John.............................................   172

                       SUBMISSION FOR THE RECORD

Boccieri, Hon. John, a Representative in Congress from the State 
  of Ohio, Air Force crew rest periods and crew duty times.......    19

                        ADDITIONS TO THE RECORD

Allied Pilots Association, Captain David J. Bates, President, 
  written testimony..............................................   178
Coalition of Airline Pilots Associations, Captain Paul Onorato, 
  President, written testimony...................................   185
International Brotherhood of Teamsters, David P. Bourne, 
  Director, Airline Division, written testimony..................   190
U.S. Airline Pilots Association, written testimony...............   193
[GRAPHIC] [TIFF OMITTED] T8300.001

[GRAPHIC] [TIFF OMITTED] T8300.002

[GRAPHIC] [TIFF OMITTED] T8300.003

[GRAPHIC] [TIFF OMITTED] T8300.004

[GRAPHIC] [TIFF OMITTED] T8300.005

[GRAPHIC] [TIFF OMITTED] T8300.006

[GRAPHIC] [TIFF OMITTED] T8300.007



                    PILOT FLIGHT AND DUTY TIME RULE

                              ----------                              


                      Thursday, September 16, 2010

                  House of Representatives,
                          Subcommittee on Aviation,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 11:00 a.m., in 
room 2167, Rayburn House Office Building, Hon. Jerry F. 
Costello [Chairman of the Subcommittee] presiding.
    Mr. Costello. The Subcommittee will come to order. The 
Chair will ask that all Members, staff and everyone turn 
electronic devices off or on vibrate.
    The Subcommittee is meeting today to receive testimony 
regarding the new pilot flight and duty time rule. The Chair 
will give a brief opening statement, will call on the Ranking 
Member, Mr. Petri, to give his opening statement, and then we 
will go to our witnesses.
    Let me say that timing is everything around here, and we 
anticipate we will have at least one vote about 11:15. So, 
hopefully, we will get through our opening statements and get 
to the witnesses before we have our first vote.
    I welcome everyone to the Aviation Subcommittee hearing on 
the pilot flight and duty time rule. Since the 1940's, there 
have been regulations limiting pilot flight and duty time and 
requiring minimum rest periods.
    In 1989, the NTSB issued three recommendations to the 
Secretary of Transportation calling for research, education and 
revisions to existing regulations. These recommendations were 
added to the NTSB's most wanted list of transportation safety 
improvements in 1990. The FAA tried to revise its regulations 
in 1995.
    Despite fatigue being linked to more than 250 fatalities in 
air carrier accidents, a consensus could not be reached between 
the stakeholders on how the FAA should revise its regulations.
    Last year, the tragic accident of Continental Connection 
flight 3407 revealed that pilot fatigue very likely had an 
effect on pilot performance, and at the time, the airline was 
not addressing fatigue for pilots who commute from other 
cities, as the captain and first officer did in this tragic 
accident. In addition, the accident raised questions regarding 
the adequacy of the FAA's current pilot flight and duty time 
rules.
    I am pleased that after we held a hearing, this 
Subcommittee held a hearing on aviation safety, and a 
roundtable on pilot workforce issues and promised to introduce 
legislation requiring the FAA to act, the Secretary of 
Transportation, Secretary LaHood, and Administrator Babbitt 
identified pilot fatigue as a top priority during the agency's 
call to action to enhance airline safety.
    At the time, I applauded Administrator Babbitt for 
undertaking an expedited review of flight and duty time rules. 
I am pleased he has followed through on his commitment to bring 
the stakeholders together and update the FAA's flight and duty 
time regulations, taking into account fatigue science and other 
factors that can affect pilot alertness, judgment and 
performance.
    While the FAA was working through its process, the House 
passed bipartisan legislation which requires the FAA to update 
and implement new flight and duty time rules for pilots within 
1 year.
    The Airline Safety and Federal Aviation Administration 
Extension Act of 2010 was signed into law on August 1, 2010. 
This is the strongest aviation safety bill in decades. We can 
all be proud of this significant accomplishment, and I want to 
acknowledge the unwavering support of the families of 
Continental Connection flight 3407, some of which are here with 
us today, who continue to engage and be proactive on this 
issue.
    The law we passed in August requires the FAA to update and 
implement new pilot flight and duty time rules within one year, 
taking into account scientific research. Further, it directs 
the FAA to require air carriers within 90 days to create 
fatigue risk management systems to proactively mitigate pilot 
fatigue.
    To address the issue of commuting, we required the FAA to 
contract with the National Academy of Science to study its 
impact on safety so the FAA can utilize the findings in its 
final rulemaking.
    On September 14, the FAA issued a notice of proposed 
rulemaking on flight crew member duty and rest requirements 
consistent with the law. I commend the FAA for taking this 
important first step. I am also encouraged that the proposed 
rule recognizes that the time spent commuting to work is not 
rest, that it is in fact time spent commuting.
    I look forward to hearing the agency's plan for staying on 
track to finalize the rule by August 1, 2011, as Congress 
directed, and receiving testimony from other witnesses as well.
    Before I recognize Mr. Petri for his opening statement, I 
ask unanimous consent to allow 2 weeks for all Members to 
revise and extend their remarks and to permit the submission of 
additional statements and materials by Members and witnesses.
    Without objection, so ordered.
    The Chair at this time recognizes the Ranking Member, Mr. 
Petri.
    Mr. Petri. Thank you very much, Mr. Chairman.
    And before I give my formal opening statement, I just 
thought I would spend a minute or two to mark the end of the 
Costello era on this Committee. It may well be that this could 
be the last Subcommittee hearing of this Congress, if rumors 
floating around are true that we will adjourn October 1st 
rather than the 8th. If there is a Science Committee, each 
Congress has its own situation, you may well be the Chairman of 
that, rather than of this particular Subcommittee.
    I just want to take a minute to say how much I have enjoyed 
working with you over the last several Congresses. And while we 
have obviously come to things with different perspectives, we 
have tried to make that add to the value of our work product 
rather than impede us from getting something done.
    It has been at the Subcommittee a productive period, two 
FAA bills in the 110th and 111th Congress, and they are still 
in process in other places; over 50 hearings and a series of 
roundtable discussions under your Chairmanship; active 
aggressive oversight of the Next-Gen process, which has been 
much needed; a pilot safety bill raising mandatory pilot 
retirement to age 65; and moving the National Transportation 
Safety Board reauthorization through our Committee.
    So you can be proud. You have earned your keep, and it 
certainly has been my pleasure to have the opportunity to serve 
as your Ranking Member.
    Mr. Costello. Let me, if the gentleman would yield, let me 
thank you for your kind words.
    And the accomplishments that we have had in this 
Subcommittee would not have been possible without the 
bipartisan cooperation of you, Mr. Petri. And I have enjoyed 
working with you.
    Let me say that the rumors of my demise are premature. I 
intend to be very active in this Subcommittee, regardless of 
what I may or may not be doing with the Science Committee. But 
I have always enjoyed working with you.
    This Committee has a reputation, as everyone knows, of 
being bipartisan, and I don't think that there are any two 
Members on either side of the aisle that have worked better 
together or more closely together than Mr. Petri and I. I have 
enjoyed working with you, and I am going to continue to work 
with you for hopefully many years in the future.
    Mr. Petri. The feeling is mutual.
    Thank you for calling this important hearing on proposed 
rulemaking on airline pilot flight and duty time regulations. 
As you pointed out in your statement, on February 12th, 2009, 
50 people tragically lost their lives when Colgan Air flight 
3407 doing business as Continental Connect, crashed outside of 
Buffalo, New York.
    Although the National Transportation Safety Board 
investigation report did not attribute the cause of accident to 
pilot fatigue, the investigation uncovered disturbing commuting 
practices, sometimes employed within the industry and reignited 
interest about the impact of fatigue on aviation safety.
    In the aftermath of the accident, this Subcommittee acted 
in a bipartisan fashion to draft legislation to address safety 
issues arising out of the accident of flight 3407. And, of 
course, we and the Senate were assisted in our work by the 
citizens who are the families of Continental flight 3407, 
several of whom are continuing their active participation in 
this process. And we thank them for their accepting and doing 
something about this problem.
    The House and Senate passed the safety legislation. In 
July, it was signed into law. The FAA is now implementing the 
provisions of the bill, including provisions consistent with 
the FAA's ongoing effort to update airline pilot flight and 
duty time regulations.
    It has been far too long since the agency has updated the 
airline flight and duty regulations, and I applaud the agency's 
efforts to address this important issue. The challenge before 
the agency will be to strike the right balance in achieving a 
true safety benefit for a dynamic aviation industry.
    The goal of this rulemaking is to improve safety, and that 
must be achieved by careful consideration of all known factors, 
including the cause of fatigue.
    Before the flight 3407 accident, pilot commuting was a 
practice in the airline industry that went largely unnoticed by 
the public. The vast majority of pilots responsibly managed 
their commuting to work. Clearly, commuting is a part of 
lifestyle choice for airline pilots and for those in many other 
professions. It is a part of two-job families and something 
that all of us are familiar with.
    However, if we agree that irresponsible commuting is a 
causal factor in fatigue, then the practice of commuting 
deserves a look. I am interested to hear from the FAA and the 
other witnesses the extent to which the aviation rulemaking 
committee came to any meaningful recommendations on commuting 
practices within the industry. In addition, I am interested to 
hear from the FAA how the proposed rule specifically addresses 
risks posed by irresponsible commuting.
    While it is far too soon to have a comprehensive analysis 
of the proposed rule--it was published only 2 days ago--I am 
interested in hearing from the witnesses their initial 
reactions to the agency's proposals and would like to hear from 
the witnesses ideas for how to improve the rule and effectively 
address fatigue issues.
    Thank you all for being here today and for participating. I 
look forward to your testimony.
    Mr. Costello. I thank the Ranking Member for his opening 
statement and remarks.
    Now the Chair will recognize the gentlelady from Texas, Ms. 
Johnson, for an opening statement or remarks that she may have.
    Ms. Johnson of Texas. Thank you very much, Mr. Chairman.
    And let me say that it certainly has been my pleasure for 
both of you to be the leaders of this Committee. It has been a 
rather delightful experience to have both of you. And I know 
that aviation safety oversight is one of the core 
responsibilities of this Subcommittee, and I commend you for 
your focus on ensuring that the FAA, the airlines, the pilots 
and inspectors all do their part to meet and maintain high 
safety standards.
    Today's hearing focuses on a specific and critical safety 
issue, the flight and duty time for pilots. As we all know, 
this issue has been debated for many years and has been on the 
National Transportation Safety Board's most-wanted list of 
transportation safety improvements since 1990.
    I share concerns with pilots in my district in particular 
that while the preamble of the rulemaking acknowledges that 
time on task is a major factor of fatigue, the rulemaking 
allows for an increase of time on task in a majority of 
scenarios. I look forward to hearing what our witnesses have to 
say on the proposal and any suggestions they might have for us.
    So I thank you, Mr. Chairman and our Ranking Member, and I 
look forward to continuing to work with both of you, especially 
on this critical transportation safety initiative.
    I yield back.
    Mr. Costello. The Chair thanks the gentlelady for her kind 
comments and for her service and contribution that she makes to 
this Subcommittee.
    The Chair at this time will recognize our witnesses. I will 
introduce the panel. The honorable Margaret Gilligan, who is 
the Associate Administrator for Aviation Safety with the FAA; 
Dr. Gregory Belenky, who is a research professor and director 
of the Sleep and Performance Research Center at Washington 
State University; Captain John Prater is the president of the 
Airlines Pilots Association, International; Mr. Stephen 
Alterman, who is president of the Cargo Airline Association; 
Mr. A. Oakley Brooks, president of the National Air Carrier 
Association; and Mr. Thomas Hendricks, vice president of 
operations and safety, for the Air Transport Association of 
America.

    TESTIMONY OF THE HONORABLE MARGARET GILLIGAN, ASSOCIATE 
      ADMINISTRATOR FOR AVIATION SAFETY, FEDERAL AVIATION 
 ADMINISTRATION; GREGORY BELENKY, M.D., RESEARCH PROFESSOR AND 
  DIRECTOR, SLEEP AND PERFORMANCE RESEARCH CENTER, WASHINGTON 
  STATE UNIVERSITY; CAPTAIN JOHN PRATER, PRESIDENT, AIR LINE 
    PILOTS ASSOCIATION, INTERNATIONAL; STEPHEN A. ALTERMAN, 
    PRESIDENT, CARGO AIRLINE ASSOCIATION; A. OAKLEY BROOKS, 
  PRESIDENT, NATIONAL AIR CARRIER ASSOCIATION; AND THOMAS L. 
HENDRICKS, VICE PRESIDENT, OPERATIONS AND SAFETY, AIR TRANSPORT 
                  ASSOCIATION OF AMERICA, INC.

    Mr. Costello. I would advise our witnesses, your entire 
statement will be entered into the record. We would ask you to 
summarize your testimony so that we allow enough time for 
questions. As I said, we expect to be interrupted here very 
shortly, but I hope to get to some of the witnesses.
    First, before I call on the honorable Margaret Gilligan, 
the Associate Administrator for the FAA for Aviation Safety, 
let me say that I want to commend you in the job that you are 
doing at the agency and, as I said in my opening statement, the 
Administrator and the Secretary for acting.
    I will note that, and I have said many times in this 
Subcommittee, that oftentimes the FAA acts only after this 
Subcommittee holds hearings, roundtables and brings issues to 
the forefront. And as I mentioned in my opening statement, we 
have held safety hearings. We have held roundtables on the 
issue of fatigue, and the rulemaking has been pending for too 
long. So I commend the agency for acting and look forward to 
hearing your testimony.
    The Chair now recognizes Ms. Gilligan.
    Ms. Gilligan. Thank you, Chairman Costello and Congressman 
Petri and Members of the Subcommittee. Thank you for inviting 
me to appear before you this morning to discuss the FAA's 
efforts to mitigate the impacts of pilot fatigue in order to 
enhance aviation safety.
    Fatigue-related issues have been the highest priority for 
Secretary LaHood and Administrator Babbitt. And with their 
strong support as well as input from the aviation and 
scientific communities, last week FAA published a notice of 
proposed rulemaking that changes the current flight and duty 
regulations. The proposal would establish a single 
scientifically-based regulatory approach for all Part 121 
operators.
    Unlike the existing requirements, which limit flight hours 
and require set rest periods across-the-board, the proposed 
regulations vary the requirements, depending on the nature of 
the operations conducted during the flight and duty periods.
    As this chart illustrates, which we have up on the wall, 
the hours of duty permitted will depend on a number of factors, 
including the number of segments operated and at what time of 
day they are operated. It just makes, sense that a pilot would 
become more fatigued conducting multiple takeoffs and landings.
    Additionally, if the operation crosses multiple time zones, 
the resulting fatigue could be compounded, so that should be a 
limiting factor. Finally, if the operation was conducted at 
night rather than during the day, the duty period should be 
shortened to compensate for increased fatigue.
    We think this varied approach is more tailored than the 
current one-size-fits-all regulation and adjusts appropriately 
based on the scientific factors we know can impact fatigue.
    We also think it is important that pilots and airlines 
better understand those scientific factors, because it may 
often be the case that pilots don't even recognize that they 
are fatigued. The proposal would require that all Part 121 
pilots, as well as individuals who schedule and manage those 
pilots, receive initial training and annual recurrent training 
on fatigue. This training would focus on how to recognize the 
symptoms of fatigue and how to mitigate them.
    The proposal clarifies that fatigue, just like being sick 
or taking certain over-the-counter medications, is related to 
the pilot's fitness for duty, and it establishes that the 
responsibility for determining whether a pilot is fit is a 
shared responsibility.
    First, we propose that pilots be given additional time for 
rest, at least 9 hours after arriving at the rest location, and 
then be able to report fit for duty.
    Before the flight departs, we propose that each flight crew 
member will have to sign the flight release attesting to his or 
her fitness for that flight.
    We propose to make it a company responsibility to know how 
the crew members get to work and consider that in assigning 
schedules.
    And finally, we propose to make it incumbent on individuals 
working with the pilot to inform the airline if they believe 
the pilot is fatigued or otherwise unfit for that flight.
    It is FAA's responsibility to develop and implement a 
regulatory framework that ensures adequate rest for pilots. It 
is the airline's responsibility to schedule its pilots in 
accordance with that framework, and it is the pilot's 
responsibility to report for duty in a fit condition.
    To better ensure that all parties are accepting and 
performing those responsibilities, the proposal contains an 
oversight provision. We propose to require the carrier to 
compare its schedule to actual flight times every two months 
and report those results to the FAA. Based on this data, if we 
see that a pilot is assigned a flight that is scheduled to 
last, for example, for 5 hours, but the flight routinely lasts 
longer, the airline must adjust its assignments to reflect the 
actual flight time for that flight. In this way, pilots cannot 
be working within the regulatory limits on paper but not in 
reality.
    The airline scheduling reliability must be at 95 percent 
overall and 80 percent for specific flight pairings, or 
adjustments will have to be made. We think this feature of the 
propose is a good incentive for all the parties to live up to 
their shared responsibility.
    Aviation would not enjoy the safety record it has if the 
hardworking professionals in both government and industry did 
not take our jobs very seriously. I want to commend everyone 
who helped us shape this proposal. Many are members of this 
panel today, and I appreciate that they did not give up just 
because this was very hard to do.
    I look forward to what I am sure will be robust debate on 
the proposal that we have made, and I am happy to take 
questions at this time.
    Mr. Costello. The Chair thanks you and now recognizes Dr. 
Belenky.
    Dr. Belenky. Chairman Costello, Ranking Member Petri, 
Members of the Committee, thank you for the opportunity to 
testify.
    I am reprising the presentation that I gave to the aviation 
rulemaking council (ARC) last summer to set the stage for 
everybody on the ARC having equal knowledge about sleep 
science.
    Sleep sustains performance and well-being. We know that. We 
experience it every day. Sleep is consolidated in the late 
evening hours and the early morning hours, and that 
consolidation is because of the circadian rhythm in body 
temperature, performance, and sleep propensity.
    As body temperature from around midnight falls through six 
in the morning, sleep propensity grows, the ability to fall 
asleep and stay asleep, and performance deteriorates. Around 6 
in the morning, body temperature begins to rise, rises across 
the day, peaks in mid to late evening, and performance rides up 
along with it.
    This is very important in considering hours of service 
regulations, because in the past, these have not considered the 
circadian rhythm in performance, sleep propensity and 
temperature.
    If you want to see what happens to normal people, a normal 
person, when sleep deprived, you can bring them into the 
laboratory and sleep deprive them for long periods of time. In 
this case, it was 85 hours of sleep deprivation, which is a 
long time.
    And you can see with the red line, there is a linear 
decrease in performance over that 72 hours in the ability to do 
useful mental work. But you can also see riding along that 
linear decline is the circadian rhythm, which modulates this 
performance decrement.
    One of the things that is very useful in conducting 
scientific work is operational definitions. ``Fatigue'' we 
define subjectively and objectively. Subjective people report, 
``I am fatigued; I am tired.'' Or we measure an objective 
decrement in performance. Without an objective decrement in 
performance, we would be hard put to say fatigue was present 
under any circumstance.
    Fatigue is not the result of sleep loss alone. It is a 
combination of multiple factors. It is three factors in 
particular: Sleep-wake history, that is time awake and sleep 
loss; the circadian rhythm, which I just discussed, time of 
day; and, very important, workload, which is time on task, task 
complexity, task intensity, workload. So these three things 
singularly and in combination cause fatigue.
    In the next slide, and my last slide, is experimental data 
showing the interaction of these three fatigue-producing 
factors. This is a study of 50 normal volunteers brought into 
the laboratory and deprived of sleep for 40 hours. You can see 
overall, from day one to day two, there is a downward trend in 
performance. You can also see that during the window circadian 
low, during the minimum of the circadian rhythm, that 
performance degrades even more than it does simply because of 
time awake with some subsequent recovery.
    The test of performance is a 10 minute test, and you can 
actually measure performance each minute, and you can see time-
on-task effect over 10 minutes even in the well-rested 
condition. And the time on-task effect is amplified by extended 
wakefulness and by being in the circadian low.
    It is this complex interaction between time awake, time of 
day, and workload, that we are trying to manage to reduce 
fatigue risk, to reduce the risk of error, incident and 
accident. And this is the focus of the current NPRM and the 
accompanying advisory circular on fatigue risk management.
    Thank you all very much. I would be happy to entertain any 
comments and questions.
    Mr. Costello. The Chair thanks you and now recognizes 
Captain Prater.
    Mr. Prater. Thank you for giving me the opportunity to be 
here today to present the views of the Air Line Pilots 
Association, International.
    It is difficult to overstate the importance of combating 
pilot fatigue to ALPA's nearly 53,000 members who fly for 38 
airlines in the United States and Canada.
    Airline pilots owe a debt of gratitude to this Committee, 
to you, Mr. Chairman, and to Chairman Oberstar and the Ranking 
Members Mica and Petri, and to every Member of this 
Subcommittee. You have championed desperately needed 
improvements to our country's outdated and ineffective flight 
and duty time limits and minimum rest requirements.
    Your efforts came to fruition on August 1st when the 
President signed your bill, H.R. 5900, into law. This law 
played an essential law in last week's release of a notice of 
proposed rulemaking.
    In addition, ALPA applaud Secretary of Transportation Ray 
LaHood and FAA Administrator Babbitt. This proposal would not 
exist without their leadership and commitment.
    Our union has long pursued modern, science-based flight and 
duty time and minimum rest regulations that would apply to all 
airline pilots, regardless of the size of the equipment they 
fly or whether they carry cargo or passengers.
    In 2007, we created a blue-ribbon panel on pilot fatigue to 
review the science of fatigue and recommend an action plan for 
the union. In 2009, ALPA adopted a landmark pilot fatigue 
policy. Last year we co-chaired and were represented by seven 
pilots on the FAA's flight and duty time limitations and rest 
requirement arc. ALPA is very pleased that the FAA has released 
a regulatory proposal.
    Guided by ALPA's policy, our union's flight time and duty 
time committee is carefully reviewing the NPRM and advisory 
circulars. The committee includes ALPA pilot safety experts 
from the range of pilots of Part 121 flying, including 
regional, domestic, international and cargo operations.
    While ALPA looks forward to submitting our full comments to 
the FAA, I would like to offer some initial observations about 
this proposal. We are very encouraged by many aspects.
    First, the proposal appears to apply scientific principles 
and recognizes human physiological limitations with increased 
minimum rest periods and more reasonable duty days, and it does 
recognize the effects of circadian rhythms on fatigue. The 
proposal applies to all FAR Part 121 flying, and would 
eliminate carve-outs for supplemental operations.
    It incorporates FAR Part 91 tag-on or ferry flights within 
flight and duty time limitations.
    The proposed rule requires fatigue education and training 
on a recurring basis at all airlines and provides for 
implementation of a fatigue risk management system.
    The NPRM mandates that all flight crew members report 
rested and fit for duty and establishes that fitness for duty 
is a joint responsibility of the flight crew member and the 
airline.
    The proposal requires airlines to accurately record and set 
scheduled flight and duty time periods based on actual 
operations and to make adjustments if unreliable scheduling is 
used. It makes the decision to extend the duty period a joint 
responsibility of the pilot in command and the airline, and it 
further limits the number of times the duty period may be 
extended for a flight crew.
    The proposal also requires positioning of crew members or 
deadheading to be counted as duty. And, finally, the NPRM 
specifically recognizes reserve or standby duty.
    All these factors mark important progress. Our union has, 
however, found several areas in our preliminary analysis in 
which the NPRM does not adequately reflect the ARC's 
recommendations.
    One, the NPRM does not ensure that the length and quality 
of rest after a long-range flight across multiple time zones 
will be sufficient before the next flight and duty period.
    Two, we have concerns that the application of the augmented 
flight and duty period table will not adequately address the 
circadian disruption that the flight crew member may experience 
during certain types of long-range flying.
    And three, the proposal does not assess the effects of 
increasing the amount of flight time in a duty period up to 10 
hours.
    After many attempts and many years and staunch advocacy by 
ALPA and others, the FAA has developed a proposed rule that has 
the potential to make significant improvements in flight and 
duty regulations and to create a safer system for passengers, 
shippers and all who depend on air transportation.
    The law now requires the FAA to publish new pilot flight 
and duty time rules no later than July 31st of next year. We 
know that this Committee will be watching the agency closely to 
ensure that it meets the deadlines, and we guarantee, so will 
we.
    Thank you.
    Mr. Costello. The Chair thanks you, Captain Prater, and now 
recognizes Mr. Alterman.
    Mr. Alterman. Thank you, Chairman Costello, Ranking Member 
Petri, Members of the Committee.
    My name is Steve Alterman, and I am the president of the 
Cargo Airline Association. The members of our association are 
the United States All Cargo Carriers, providing both express 
and traditional heavy freight service to shippers around the 
world.
    Both individually and as an association, members of our 
industry agree that pilot fatigue is a legitimate safety issue 
and important safety issue and that the reexamination by the 
FAA is both necessary and appropriate and overdue.
    The notice of proposed rulemaking issued by the FAA and 
published in the Federal Register on September 14th provides 
the vehicle for the ongoing effort to craft a rule that 
increases safety while at the same time ensuring that the 
airline industry can continue to serve its customer base. We 
appreciate the opportunity to address these issues today.
    At first blush, the NPRM appears to raise the relevant 
issues and actively solicits industry input. However, since 
this exceedingly complex rule was only published earlier this 
week, we are not yet prepared to comment in detail on its 
provisions. We will, however, offer some comments on the 
approach to addressing pilot fatigue.
    First, although an integral member of the aviation 
community, our unique segment of the industry is substantially 
different from other participants in the air transportation 
marketplace. Unlike passenger carriers, all cargo carriers 
regularly operate long-haul international flights, traveling 
across multiple time zones during nighttime hours.
    All cargo carriers also operate around the world in all 
directions and don't traditionally run turnaround service to 
international destinations. Service is often provided to 
remote, often hostile destinations, often for mission-critical 
flights on behalf of the military.
    Because of the industry's unique operations, all cargo 
crews have longer and better opportunities for rest during a 
duty period. Indeed, companies have invested millions of 
dollars to provide lie-flat sleeping facilities at domestic 
hubs to provide flight crews sleep and to mitigate fatigue at 
those hubs. Similarly, industry members have substantial 
investments in high-quality rest facilities aboard long-range 
aircraft.
    All cargo flight crew matters, as a matter of fact, make 
fewer annual takeoffs and landings and fly substantially fewer 
hours now than their passenger counterparts.
    Why are these and other distinctions important? Simply 
because they demonstrate that the United States air 
transportation industry is not a unified whole, but rather 
consists of separate segments with different operational needs.
    In turn, while everybody in the industry, both companies 
and employees, strive for the highest level of safety, the 
means for achieving this safety level should be tailored to the 
unique operations of the industry components.
    As FAA Administrator Randy Babbitt has noted at an ALPA 
safety forum, ``In rulemaking, not only does one size not fit 
all, but it is unsafe to think that it can.'' This principle is 
especially important if in the context of pilot fatigue. In 
crafting a new regulatory scheme to address the legitimate 
safety concerns, the FAA should recognize these differences 
inherent in the all-cargo operations and craft a scheme that is 
consistent with those differences.
    I want to comment just briefly on the process thus far, and 
I think it goes to some of the comments made in the opening 
remarks, and that is that the ARC process which the cargo 
airline participated in fully concentrated almost entirely on 
the hour and service issue and very little on the commuting 
issue.
    It seems to us that when you are trying to figure out how 
to craft new rules, the first thing that should be done is find 
out what the cause of the problem is and then craft the rules 
to address those problems. And we felt fairly strongly that 
there was an over-commitment to the flight and duty time aspect 
and not enough time spent on the commuting issue, and we felt 
that that was one of the problems with the ARC as it was 
constituted.
    Finally, I would like to comment just briefly, because our 
industry took this process very seriously. We didn't ignore the 
flight and duty time issue. We actually put in to the ARC, and 
it was submitted to the FAA later, a comprehensive proposal 
dealing with flight and duty time. That proposal recognized the 
differences between international and domestic operations, 
established limits where no limits currently exist, accounted 
for time-of-day operations, addressed the crossing of multiple 
time zones, reduced the flight duty periods for domestic and 
international operations from those in current regulations, and 
increased the required rest periods for domestic and 
international operations.
    I mention that because, in spite of the fact that we felt 
there was too much concentration on the flight and duty time 
and not enough on commuting, we did take our responsibility 
seriously and did put that proposal in. A copy of the summary 
of that proposal is attached to our written testimony.
    Thank you very much. I would be happy to answer any 
questions.
    Mr. Costello. The Chair thanks you and announces to 
Members, we have less than 2 minutes to get over to the floor 
for three votes. So the Committee will stand in recess until 
12:15. We would ask that the witnesses be in their chairs at 
12:15.
    The Committee stands in recess.
    [Recess.]
    Mr. Costello. The hearing will come back to order. And we 
will recognize Mr. Brooks.
    Mr. Brooks. Good afternoon, Chairman Costello, Ranking 
Member Petri, and Members of the Subcommittee. National Air 
Carrier Association appreciates the opportunity to testify 
before the Committee on Transportation and Infrastructure's 
Subcommittee on Aviation. All NACA members are certificated to 
fly under part 121 of the Federal Regulations.
    Our nonscheduled passenger and all-cargo airlines, which 
are the bulk of NACA members, fly when their customers demand, 
to all points of the globe. Notice that prospective flights is 
usually measured in days or weeks. NACA carriers fly 95 percent 
of all military passengers and 40 percent of all military cargo 
under the Civil Reserve Air Fleet Program administered by the 
Air Force's Air Mobility Command. Notice for these flights to 
Afghanistan, Iraq, Kuwait, and other points is usually 3 weeks 
or less.
    NACA has participated in every flight and duty time review 
over the last 20 years. We were a member of the Aviation 
Rulemaking Committee in 2009, and submitted comments and 
recommendations. We believe changes should be made.
    FAA released its notice of proposed rulemaking this past 
Friday. It is too early for a detailed analysis of the NPRM, 
but there is one proposal in the notice we want to highlight 
today.
    Nonscheduled airlines currently operate under Subpart S of 
Part 121, which is specifically referrals to nonscheduled 
operations. Subpart S already has many fatigue mitigation 
principles incorporated to permit often unpredictable flights 
and longer flight duty periods. For example, in the same 
domestic environment as scheduled operations, if nonschedules 
fly a pilot more than 8 hours in a 24-hour period, we must give 
the pilot 16 hours of rest compared to only 11 hours' rest for 
scheduled carriers. These rules were put in place to recognize 
the distinct differences between scheduled and nonscheduled 
airlines and the nonregular services nonscheduled airlines 
provide.
    It is an interesting fact that nonscheduled airlines 
regularly allow for even greater sleep opportunities, both 
before and after flight duty, than required in Subpart S for 
the NPRM. This is to provide an extra layer of safety for their 
crews. And we are offering to adjust future regulations based 
on these facts and formal scientifically supported fatigue 
mitigation programs. But nonscheduled carriers need the 
flexibility in the regulations to allow longer flight-duty 
periods.
    NACA's comments in the rulemaking committee last fall 
recommended continuation of Subpart S or equivalent. The just-
released NPRM rejected that recommendation, choosing a one-
size-fits-all rule, despite Administrator's Babbitt's 
insistence to a recent ALPA safety forum that one-size-fits-all 
in a regulatory environment can be unsafe.
    The NPRM justifies eliminating Subpart S by saying 
nonscheduled and scheduled carriers are becoming similar. I 
respectfully disagree. The two types of carriers are not 
becoming similar. Scheduled carriers offer scheduled service, 
and nonscheduled carriers offer nonscheduled service. NACA will 
be making this and other arguments to FAA in its comments. We 
believe it represents safety at its highest level and it is in 
the public interest.
    Thank you for allowing me to testify, and I look forward to 
taking any questions.
    Mr. Costello. We thank you for your testimony.
    And now the Chair recognizes Mr. Hendricks.
    Mr. Hendricks. Good afternoon, Chairman Costello, Ranking 
Member Petri, and Members of the Subcommittee. My name is Tom 
Hendricks. I recently became the vice president of operations 
and safety at the Air Transport Association of America.
    Pilot duty limit and rest requirements are of the utmost 
importance. As a captain and professional pilot for nearly 23 
years at a major U.S. Airline, I understand the critical 
importance of safe airline operations and the dependencies on 
crew members who are alert and can respond to the demands of 
flying commercial aircraft.
    Pilots, airlines, and the Federal Aviation Administration 
each have indispensable roles in achieving our common objective 
of ensuring adequate rest for crew members. How that objective 
is achieved is also vital. Appropriate duty limit and rest 
requirements must be the product of scientific research and 
operational experience, be effective, and reflect the specific 
operational environment of each carrier. We must smartly 
combine data-driven and evidence-based approaches in devising 
any new regulatory initiatives.
    Because ATA and its members recognize the significance of 
these considerations, we were very active participants in the 
Federal Aviation Administration Flight and Duty Time Aviation 
Rulemaking Committee. The FAA chartered the ARC on July 15, 
2009 to recommend revisions to the agency's flight and duty 
time rule. The ARC met this very compressed September 1, 2009 
deadline. That achievement was the result of the collaboration 
and professionalism of those on the committee.
    While the ARC was active, ATA, the Cargo Airline 
Association, and the Regional Airline Associated submitted 
joint recommendations to the FAA for its consideration in the 
development of the expected Notice of Proposed Rulemaking. 
These recommendations reflected the diverse operations and 
experience of mainline, all-cargo, and regional airlines. We 
express in those recommendations support for a duty-day 
regulation that appropriately responds to fatigue risks, 
including circadian cycles, time awake, time on task, and 
acclimation to time zones. Consequently, our recommendations 
were generally more restrictive than many duty limit and rest 
regulations around the world. They will mitigate fatigue risk 
by reducing the duty time of pilots and expanding the amount of 
time for scheduled rest opportunities to assure adequate rest.
    Last Friday, the FAA released its Flight and Duty Time 
NPRM. We want to compliment Administrator Babbitt and Associate 
Administrator Gilligan in shepherding the proposed rule. ATA 
and its members have not finished reviewing that lengthy and 
comprehensive document. We will fully respond to the NPRM in 
the comments that we file in the docket.
    In the meantime, however, the concepts that we outlined 
last year in our joint recommendation indicate the principles 
that we believe should be embodied in any change to the FAA 
regulation. In essence, they are as follows:
    The new regulation should require each air carrier to adopt 
an FAA-approved fatigue mitigation program that contains the 
carrier's fatigue mitigation policies and training programs. 
Means of compliance are now outlined in the recently released 
FAA advisory circular 120-123, which offers more detail and 
explanatory background than could be included in the proposed 
regulation. This process will provide flexibility for updating 
and modifying airline fatigue mitigation programs as needed. In 
addition, the regulation should recognize the wide array of air 
carrier operating environments.
    While the goal for all of us is one level of safety, this 
does not mean that it is not accomplished by one form of 
regulation. Any new regulation must account for a wide variety 
of operations, just as it does today. Nothing in fatigue and 
sleep research suggests the need for a one-size-fits-all 
regulation. Indeed, science recognizes that individual 
differences and operational contexts affect performance. 
Science-based guidelines, judiciously blended with decades of 
operational experience, will allow the various air carrier 
models to continue to operate with the highest degree of safety 
for crew members and passengers.
    The regulation should clearly state that the crew member is 
responsible for properly preparing for flight during the 
prescribed opportunity for rest. Expressly stating this 
responsibility will help address pilot commuting issues and 
will establish a framework from which a carrier can develop 
fatigue policies.
    Finally, any new regulation must confine itself to 
demonstrably necessary safety-related requirements and avoid 
issues appropriately left to resolution in the collective 
bargaining process.
    ATA and its member carriers recognize the importance of 
this issue. We look forward to participating in the rule making 
proceeding.
    Mr. Costello. The Chair thanks you, Mr. Hendricks.
    Let me begin with a question for all of our witnesses. Does 
anyone on the panel disagree that pilot commuting time should 
not be considered or should be considered? So, in other words, 
do you all agree that it should be considered, the commuting 
time in the rule? Anyone disagree with that? OK.
    Ms. Gilligan, you state that there was consensus on many 
issues, but there were a handful of issues that the ARC did not 
reach a consensus on. I wonder if you might elaborate on the 
issues that there was not a consensus.
    Ms. Gilligan. Yes, Mr. Chairman. Fundamentally, the ARC 
agreed on the set of issues that needed to be addressed. They 
understood, based on Dr. Belenky and other scientists who 
worked in this area, that there were factors to be considered. 
They agreed to the concept of a sliding scale, much like the 
chart that I shared early on, but they didn't reach agreement 
specifically on how many hours of flight time and duty time and 
rest time should actually be proposed. And so that came back to 
the FAA to take into account all the various proposals that you 
have heard many testify about here, and taking that into 
account, given the science, to actually draw up the charts that 
you see in the rule to set specific times for those three 
elements of the rule.
    Mr. Costello. Captain Prater, on page 6 of your testimony, 
you offered it in your oral testimony today, that there were 
three issues in particular that you identified, a few areas in 
which the NPRM does not adequately capture the ARC's 
recommendations. And one is ensuring the length and quality of 
rest. I wonder if you might elaborate on all three points.
    Mr. Prater. Certainly. The first major change is the 
proposal to go from 8 flight hours to 10 flight hours during 
the daytime. So, on its surface, that is something you have to 
look at very closely. Obviously, combined with reducing the 
duty day from 16 to 13 hours certainly mitigates that. But that 
is an area that we believe will warrant further concern. Our 
recommendation had been to go to 9 hours. Then there is some of 
the specific issues on the long-haul or ultra long-haul that we 
believe bear closer scrutiny. How much rest do you require 
after a 16-hour flight that crosses 10 to 12 time zones? And we 
believe that that is an area that will require further work.
    Mr. Costello. You also state that there is no rational 
basis for cargo or charter pilots to have different or more 
liberal fatigue rules than scheduled passenger operations. I 
wonder if you might explain that point.
    Mr. Prater. Yes, sir. I would certainly be more than happy 
to turn to my right here and ask the doctor if there is any 
difference between human beings that get hired by an employer 
that flies cargo with airplanes versus one that flies 
passengers. I have done all. And I can tell you that the human 
beings that are pilots makes no difference to your fatigue 
level on what your mission is, whether you are flying cargo or 
whether you are flying passengers. And the fact that over 40 
years there have been carve-outs because of economic reasons, 
that is what we ask to end today, and we believe that this 
proposal does a good start on that.
    Mr. Costello. Dr. Belenky, would you agree with Captain 
Prater?
    Dr. Belenky. Mr. Chairman, yes, I would.
    Mr. Costello. Very good. The Chair now recognizes the 
Ranking Member for any questions that he might have.
    Mr. Petri. Thank you very much, Mr. Chairman. I maybe would 
ask the associate administrator, Margaret Gilligan, a little 
bit about the implications of the rule or how to kind of think 
about it.
    I understand that the briefings and so on, as people were 
discussing the proposal, the rule would make it longer, take 
longer--when implemented--to accomplish the same number of 
flights. Do you have any estimate as to how many more pilots 
would be required for the industry as a whole under the new 
rule as opposed to currently?
    Ms. Gilligan. Yes, sir. In our economic analysis, we do 
address those issues. We believe the flight time will be 
covered in two ways: It is likely that current pilots will end 
up flying more days to fly the same number of flight hours. 
And, as I think you know, their pay is linked to flight time as 
well as to time on duty. So some of it, the schedules will have 
to be moved out a little bit to fit the same number of flights 
for the pilot to fly the same number of flight hours. But right 
now, the estimate is about 2,300 pilots would need to be added 
to cover the current schedules.
    Now, of course, there will be optimization of scheduling 
and those kinds of things that may affect that, but that would 
be a fairly large increase. It is about a 3 percent increase in 
the pilot ranks. But that would happen very early on, right 
after the effective time of the rule, so it is a fairly 
condensed time for that additional cost.
    Mr. Petri. And as part of your analysis, did you make kind 
of a--I don't know if it would be a back-of-the-envelope or 
more sophisticated--some sort of an estimate as to the cost to 
the society of these changes?
    Ms. Gilligan. Yes, sir. Again, we have done a detailed 
cost-benefit analysis as is required by the rulemaking process. 
And the cost estimates for what we call present value, which is 
an easier comparable number, is about $800 million in cost. 
And, depending on how economists value the lives that would be 
saved by reducing those risks, the benefits are I believe 
between $400 million and $600 million. So the benefits, we 
believe, justify the cost in this rule, and that is why we have 
gone forward with the proposal.
    Mr. Petri. Now, you can tell from the other people 
testifying on the panel and from the comments that have been 
made about the rule, there is some tension about how the rule 
applies to different segments of the aviation industry, 
scheduled and nonscheduled and charter and so on, human flight 
and packaged flights.
    Did you consider, or what is the reason for having kind of 
an overall framework rather than a differentiated approach, 
depending on the requirements of that industry? And do the 
costs fall disproportionately on different segments of the 
industry?
    Ms. Gilligan. I think, as you have heard Dr. Belenky 
explain so well, the dilemma that we face in developing this 
framework is that, at the end of the day, all pilots are humans 
and all humans react to fatigue the same way. So the fact that 
I might have a job that is an overnight job doesn't change the 
way I physically react to fatigue. And what we have tried to 
balance here is what we know about what it is that contributes 
to fatigue against the hours that someone can be available to 
operate.
    There are two specific elements in the proposal, however, I 
think, to go to some measure to address the concerns of Mr. 
Alterman and Mr. Brooks. We have permitted what we call split 
duty. That is, as Mr. Alterman described, there are many cargo 
operators who run a hub operation; and once the pilots arrive, 
they then provide them very comfortable accommodations to rest 
during the time that the packages are being moved through the 
hub facility, and we have credited that additional rest and 
allowed them then to extend some operational time based on that 
rest.
    We have also specifically exempted, to Mr. Brooks' concern, 
those flights that support critical U.S. missions around the 
world that may have a crew end up in a very unsafe location 
where we would permit them to move to a safe location. Now, we 
want reporting on that, we want to monitor it and make sure it 
is not being abused, but we are very mindful of the concerns as 
that might affect those military missions.
    And, again, it is a proposal. We are looking for comments 
on the elements we have included. We will certainly consider 
other elements that meet the safety and scientific needs, but 
that can help us adjust the proposal.
    Mr. Petri. I realize my time is up. I wonder if I could 
just ask if Mr. Brooks or Mr. Alterman have any comments to 
make on how this rule might possibly be modified to take into 
account the particular nature of the segments of the aviation 
that you are representing.
    Mr. Alterman. Thank you. First of all, I think and I did 
mention earlier, that I think the structure of the rule is the 
way to go. I think the FAA has recognized all the elements. The 
question is how to apply those elements to different segments.
    And I certainly couldn't disagree with the answer to 
Captain Prater's question about whether a pilot cares whether 
he is flying cargo or passengers. That, I would suggest, is not 
the right question, however. The question is, if you are hired 
to fly nighttime rotations for an overnight cargo carrier as 
opposed to flying an occasional overnight segment or a red-eye 
for a passenger carrier, why does the scientific matter? Does 
that do--is there a difference? Can you become acclimated to 
flying basically nighttime schedules all the time? And I am not 
sure that I have seen any scientific studies that deal with 
that issue.
    So what we are urging is, before we jump in and start 
limiting nighttime flying drastically--and we have suggested 
limiting nighttime flying and recognize the validity of 
circadian rhythms--that we get more information on that and 
find out whether, for instance, a FedEx or a UPS pilot can 
acclimate himself because they are flying that one rotation.
    And I do applaud the FAA and Ms. Gilligan's comments that 
they have tried to recognize distinct operations in certain 
areas, and split duty is certainly something that we 
appreciate, because of all of our members provide, when a cargo 
carrier gets to a hub, facilities to get rest while the cargo 
is being sorted and before he goes out again. So I think that 
was a very good provision.
    Mr. Brooks. Mr. Petri, let me make a couple comments to 
start. The nonscheduled carriers, generally the crews operate 
about 50 hours a month, which is far fewer hours than scheduled 
carriers operate. And they also operate on very short notice, 
as I mentioned, to distant parts of the globe, which it is very 
difficult to set up crew bases--almost impossible to set up 
crew bases and other situations such as that that scheduled 
carriers have.
    We also applaud the FAA and the whole process for bringing 
in the additional science, considering circadian low, numbers 
of stops, nighttime flying, and we agree that those are very 
important elements that should and will be introduced into the 
whole process of setting hours.
    I would tell you, and I am repeating what I had in my 
testimony, and it coordinates with the number of hours that our 
pilots fly, that in order to make up for the long flights that 
nonscheduled carriers often have to fly, our airlines regularly 
schedule longer sleep opportunities, both before and after 
flying, than are either required in the regulations or are 
normal for scheduled carriers.
    And our review with Dr. Graeber, who assisted us on this 
analysis, is that if you are able to combine long flying with 
long sleep periods in a responsible way, that provides the rest 
and the sleep necessary for the crews to become ready for duty 
again. And that is a critical element which we emphasize over 
and over again.
    And finally, just to pick up Ms. Gilligan's point about 
flying into unsafe areas, we certainly recognize that and the 
move that the FAA made and the NPRM to address that. What we 
need more discussion about is how it would work in practice. 
Are these going to be one-off trips? There is a reporting 
requirement at the end?
    And so these are the sorts of things that we need to get 
into more. But we do recognize that mitigation opportunity that 
the FAA discussed in the NPRM, and we look forward to getting 
into that more. Thank you.
    Mr. Costello. The Chair thanks you and thanks the Ranking 
Member, and now recognizes the gentleman from Ohio, Mr. 
Boccieri.
    Mr. Boccieri. Thank you, Mr. Chairman. And first let me 
applaud Mr. Babbitt and the FAA for finally taking this up. I 
know the NTSB has been at the heels for some time to develop a 
program of such. I just have a few quick questions.
    And, Mr. Chairman, I would like to submit for the record--I 
have copies of the Air Force crew rest periods and crew duty 
times, and we can submit that for the record. It is referenced 
in Air Force Volume 202, Volume 3--11-202, Volume 3. And they 
describe crew rest. When you are done, the propellers stop 
turning, you walk out the door, 45 minutes after that is when 
your crew rest begins. Now, that gives you 12 hours of crew 
rest period where you have time to go get a meal, where you 
have time--there have been delays. I have been on the back end 
of a clock where there are problems with the hotel, the ride 
may not show up on time. So right now the FAA has been 
prescribing that that be raised from 8 to 9 hours.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T8300.008
    
    [GRAPHIC] [TIFF OMITTED] T8300.009
    
    [GRAPHIC] [TIFF OMITTED] T8300.010
    
    [GRAPHIC] [TIFF OMITTED] T8300.011
    
    [GRAPHIC] [TIFF OMITTED] T8300.012
    
    [GRAPHIC] [TIFF OMITTED] T8300.013
    
    [GRAPHIC] [TIFF OMITTED] T8300.014
    
    [GRAPHIC] [TIFF OMITTED] T8300.015
    
    [GRAPHIC] [TIFF OMITTED] T8300.016
    
    [GRAPHIC] [TIFF OMITTED] T8300.017
    
    [GRAPHIC] [TIFF OMITTED] T8300.018
    
    [GRAPHIC] [TIFF OMITTED] T8300.019
    
    [GRAPHIC] [TIFF OMITTED] T8300.020
    
    [GRAPHIC] [TIFF OMITTED] T8300.021
    
    [GRAPHIC] [TIFF OMITTED] T8300.022
    
    [GRAPHIC] [TIFF OMITTED] T8300.023
    
    [GRAPHIC] [TIFF OMITTED] T8300.024
    
    [GRAPHIC] [TIFF OMITTED] T8300.025
    
    [GRAPHIC] [TIFF OMITTED] T8300.026
    
    [GRAPHIC] [TIFF OMITTED] T8300.027
    
    [GRAPHIC] [TIFF OMITTED] T8300.028
    
    [GRAPHIC] [TIFF OMITTED] T8300.029
    
    [GRAPHIC] [TIFF OMITTED] T8300.030
    
    [GRAPHIC] [TIFF OMITTED] T8300.031
    
    [GRAPHIC] [TIFF OMITTED] T8300.032
    
    [GRAPHIC] [TIFF OMITTED] T8300.033
    
    [GRAPHIC] [TIFF OMITTED] T8300.034
    
    [GRAPHIC] [TIFF OMITTED] T8300.035
    
    [GRAPHIC] [TIFF OMITTED] T8300.036
    
    [GRAPHIC] [TIFF OMITTED] T8300.037
    
    [GRAPHIC] [TIFF OMITTED] T8300.038
    
    [GRAPHIC] [TIFF OMITTED] T8300.039
    
    [GRAPHIC] [TIFF OMITTED] T8300.040
    
    [GRAPHIC] [TIFF OMITTED] T8300.041
    
    [GRAPHIC] [TIFF OMITTED] T8300.042
    
    [GRAPHIC] [TIFF OMITTED] T8300.043
    
    [GRAPHIC] [TIFF OMITTED] T8300.044
    
    [GRAPHIC] [TIFF OMITTED] T8300.045
    
    [GRAPHIC] [TIFF OMITTED] T8300.046
    
    [GRAPHIC] [TIFF OMITTED] T8300.047
    
    So I am saying to you that--what happens in those 
circumstances when the pilots or the air crew have a delay, 
they don't get to the hotel? Does their 8 hours of 
uninterrupted sleep begin when they are actually laying in 
their bed with the remote control on their lap?
    Ms. Gilligan. Actually, sir, we have changed when the rest 
period begins. It is now 9 hours' rest period that begins after 
arriving at the rest facility, whether that is at the hotel or 
at your home, with an eye toward providing an actual 8 hours of 
sleep opportunity within that 9 hours. So that is a fairly 
dramatic change from the current, which is not unlike what you 
described right now: The end of the duty period is after 
leaving the aircraft. So we have made that change.
    Mr. Boccieri. If it is 12 hours for the Air Force, why can 
it not be 12 hours under the FAA's designation?
    Ms. Gilligan. Again, having worked through this issue with 
the rulemaking committee and having looked at the science 
involved, we believe that a reasonable balance that allows for 
sufficient rest will be a 9-hour rest period.
    But I would point out that at the maximum 13 hours and a 
rest period of 9 hours, there is still 2 hours in that 24-hour 
day. So there is more time in that 24-hour period than we have 
assigned to either rest or to duty time.
    Mr. Boccieri. My concern is on the back end of that clock, 
especially on international flights, where you are flying 
through multiple time zones and you are laying in your hotel 
and you are trying to go to sleep, but it is light out and 
there is not sufficient time there.
    Even under the best circumstances, pilots may not realize 
an 8-hour sleep opportunity, given even the scientific studies 
that are being presented here today. And my concern especially 
is on the international flights. How were these best practices 
incorporated into that rule, especially on the international 
flights?
    Ms. Gilligan. When you have an opportunity to review the 
rule, I think you will see we have several charts that describe 
what we call the sliding scale. So depending on the hour of the 
day at which you start work, the flight-duty time period is 
reduced. So if you are flying late night flights, you are 
available to your company for less time for actually being on 
duty. And, again, that will free up hours to be used for rest.
    So it is a balance of trying to acknowledge that there are 
certain hours during the day and certain numbers of segments, 
both of which contribute to fatigue and reduce the amount of 
time the pilot is available to be on duty.
    Mr. Boccieri. I also have a bit of concern about the 
decrease from 30 to 28, the number of days during which a pilot 
may not record more than 100 hours of flying time. Was there 
any thought that that is going to be compressed down? Instead 
of having 30 days to complete 100 hours, they are going to be 
28 days, which means they are going to be flying a lot more 
hours versus of spreading that over 2 more days?
    Ms. Gilligan. Again, we believe that the entire proposal 
provides a sufficient balance among all of the various elements 
that have to be considered, and that is why it really is a 
package that you have to look at as a whole. But these are the 
specific areas where we have asked for comment. We actually 
list in the Preamble comments that we have asked people to 
provide data. Does this change, raise risk or not? Do you have 
data that supports that? So, as we go into the final rule, we 
will be better informed.
    Mr. Boccieri. Thank you. One last question. What does the 
proposed rule for reduction of these rest periods, what would 
occur on extra long days where, for instance, that were caused 
by delays? Was that factored into the decision-making in the 
ARC?
    Ms. Gilligan. Yes. Right now, the proposal would permit the 
extension of the flight-duty period a single time in a 7-day 
period for 1 hour, with agreement by both the crew and the 
company. And, again, that is with the expectation there was 
something completely--that the company could not have 
anticipated. So whether another phenomena that should be 
anticipated in building schedules would not be a basis for 
extending that.
    Mr. Boccieri. In the CRM reports, the Crew Resource 
Management forms that they are supposed to come up with here, 
is there a nonretribution provision in there that says that air 
crew are not going to be penalized if they show up and say, ``I 
just can't perform my duties today, I am tired''?
    Ms. Gilligan. The rule requires that no airman may accept 
an assignment if they are not fit for duty, and the air carrier 
may not use or give an assignment to a crew member who is not 
fit for duty. It would be a regulatory violation to use that 
pilot in that way.
    Mr. Boccieri. Very good.
    Thank you, Mr. Chairman.
    Mr. Costello. The Chair thanks the gentleman. And not only 
thanks the gentleman for his thoughtful questions, but for the 
contributions that he made in helping us craft a safety bill 
that we think is one of the best that has been done in decades. 
So I thank you.
    The Chair at this time now recognizes the distinguished 
Chairman of the Full Committee, Chairman Oberstar.
    Mr. Oberstar. Thank you, Mr. Chairman. And I appreciate the 
work that you put into preparing for this hearing, and the 
staff, and also greatly appreciate the participation and 
support from Mr. Petri and staff on the Republican side, and 
the comments of Mr. Boccieri. He has really become our resident 
aviation authority on the Committee, and I greatly appreciate 
the contribution he brings.
    I have just mention for the record, I have said it in other 
venues, but we were walking off the House floor after the 
health care vote, and a gaggle of reporters asked, ``Was that a 
tough vote for you?'' And he said, ``Compared to flying C-130's 
out of Iraq? No.'' So he brings a steady hand to these issues.
    Mr. Brooks, you had a rather sleight-of-hand comment about 
the one-size-fits-all, and that is not a right thing to do. And 
I just excised from your statement that the crews on 
nonscheduled carriers fly longer flight segments and therefore 
have longer sleep opportunities.
    Without saying what those longer segments are, how long are 
the segments?
    Mr. Brooks. Mr. Chairman, I would be reluctant to use an 
actual number. But those segments, in terms of flight days, can 
get out to 16 or 18 hours. Again, depending on what we call 
augmentation on the airplane, sometimes there are one 
additional crew member, sometimes there are two additional crew 
members. And that is covered in the regulations now and, again, 
it is considered in the proposal. So those are some.
    Mr. Oberstar. Eight hours, 10 hours, 12 hours, 16 hours?
    Mr. Brooks. Yes, sir. Depending on the augmentation, the 
level of augmentation and the crew.
    Mr. Oberstar. Sixteen hours at controls?
    Mr. Brooks. Well, not one crew member, sir. But with 
augmentation and crews taking over. In other words, crews 
sleeping on the airplane in bunks.
    Mr. Oberstar. In one of the paper mills in my district, the 
management and labor got together on an idea that is going to 
save management some money and might help the workers. They 
have longer weekends. They can do more hunting, fishing, 
snowmobiling in the winter and so on. Four 12-hour days. So I 
went to the plant to see how this is working out, and I talked 
to one of the old-timers. What do you think about it? You have 
worked in that mill for 30 years. He said, ``Jim, I won't stand 
by one of these guys that has put in a 12-hour shift. He might 
turn around and bump me into that vat down there.''
    These guys aren't rested after 12 hours, no more working in 
a paper mill than behind the stick on the flight deck. Have you 
worked shift work yourself?
    Mr. Brooks. No, I have not. Aside from my time on the 
railroad, which I suppose is shift work, that is my experience.
    Mr. Oberstar. I did. I watched my father do it, too, in the 
underground mine for 26 years and in the open pit for another 
14 years. I worked the night shift, 11 to 7, they called it the 
graveyard shift. On one of those, I was sampling ore on an ore 
car. You criss-cross the car with a little scoop in your hand 
and take samples of the ore, put it in a bag, toss it off the 
car, jump to the next car. About two, three in the morning you 
get a little woozy. I was just a kid. I was 19 years old, a lot 
of energy, indefatigable. In the rain one night, a rainstorm, I 
stepped on the edge of that car. There was a lump of ore. I 
didn't see it, a little loose piece of ore. I cut my foot on 
it, flipped right off the car 15 feet down right between two 
railroad tracks, two railroad ties. Three inches either way, I 
wouldn't be here today. That is fatigue.
    I was working the shift on the dumps. You bring the ore 
cars, the gondolas that are bringing rock, overburdened, to 
dump. They had a switch and three tracks, and I had to keep 
track of who was on which of those tracks so I wouldn't send a 
car up and smack into somebody who was already on that track. 
And even when I marked it down, which place and where they 
were, at two or three in the morning, in a rainstorm and under 
adverse conditions, I wasn't sure I had done the right thing.
    Now, all of you, I think, on this panel are aware of the 
work this Committee did 3 years ago on railroad safety. I know 
you are going to wonder, well, what does railroad safety have 
to do with aviation? Well, this is an intermodal Committee, and 
the Rail Safety Act passed in 1907 had been amended once in 100 
years. We were determined to turn that around to update 
railroad safety, and one of the targets was limbo time.
    Limbo time is just like something you were describing here 
and this panel was discussing in response to various questions. 
The 10-hour, 100-mile rule. If you as a locomotive engineer run 
that engine and that train 10 hours, that is the end of your 
shift. If in 8 hours you run 100 miles, that is the end of your 
shift. But not quite. You are still on duty. And they have got 
a little shack at the edge of the track where the railroad had 
built a shack for the crew to rest in. Or, sometimes they would 
put them up in a motel, but you can't leave the motel when you 
are there. You are not on duty, you are not off duty. It is 
limbo time.
    One railroad, I will name them, it was Union Pacific, in 
2006, had 96,000 shifts of limbo time. I say I will name them 
because I named them in that hearing and it was documented in 
our hearing. You are on duty all the time. Not paid for it, but 
you are not off duty because you can't go and do anything you 
want. You are supposed to be resting. And then you can be 
called up for the next shift.
    At the markup in Committee, I think Mr. Costello might 
remember, I said, ``If it is good enough for the Pope to 
eliminate limbo time, it is going to be good enough for this 
Committee.'' All the Catholics in the audience laughed. But we 
did it over a 3-year period.
    Dr. Belenky, I am leading up to you. The Rosekind Study for 
many years was considered the gold standard in fatigue, fatigue 
management, and we have had Dr. Rosekind before this Committee 
several times when I Chaired both the Investigations Oversight 
and the Aviation Subcommittee during the years we were in the 
minority. He has documented time-and-again the effects of 
fatigue on pilots, flight attendants, and air traffic 
controllers.
    There were 27 studies of controller fatigue, Ms. Gilligan, 
when you were just a young attorney at the FAA, 26 of them had 
been rejected by FAA. Every one of them showed fatigue. Too 
many hours at controls, no break in between, too little rest 
time away from controls, fatigue setting in. Finally, the 
Rosekind study was one FAA could not reject, and they began 
dealing seriously with the fatigue. But by then, there was the 
strike. So it started all over again.
    Now, there is ``fatigue'' and ``fatigue.'' If you are 
flying 6 hours, 7, 8 hours in one time zone, north to south, 
south to north, there is one effect on the body's circadian 
rhythm. If you are flying against the clock, there is another 
effect. If you are flying with the clock over multiple time 
zones, there is a third effect. I want you to tell me the 
difference between 16, 12, 10, 8 hours in those modes.
    Dr. Belenky. Mr. Chairman, I am afraid I can't do that in 
the sense that you would really have to do some experimental 
work to look at specifics directionality, north, south.
    When you talk about 12, 18 hours at the controls, I think 
obviously those are--that is a very long time. One of the ways 
this becomes feasible is with augmented crews and in-flight 
rest facilities and in-flight sleep. And pilots do get in-
flight sleep. And from my perspective, it is total sleep in 24 
hours that determines performance. So if they are getting 
decent amounts of sleep--an empirical question--in each 24 hour 
period they should be good to go, taking into account that if 
they are flying through their window of circadian low, 
performance may be degraded even in the situation where they 
are well rested.
    But it is very hard to come up with a specific rule and a 
specific number given start times, different start times, 
different end times, given the effects of early starts, 
extended work hours, and then the issue of resynchronization. I 
mean, if you are exposed to light in different time zones, your 
body will start to resynchronize. But that slow process 
resynchronizes by approximately an hour a day. So if you do a 
rapid turnaround, you may not have all that much change in time 
zones.
    Mr. Oberstar. And that is that one phrase, an hour a day, 
for each hour of time zone change.
    Dr. Belenky. That is a rough estimate.
    Mr. Oberstar. I appreciate that you are being 
scientifically responsible and not wanting to generalize, but 
there is an enormous body of research done on all of these 
factors. And I don't think we need to wait until the last study 
is done, as was done with the air traffic controllers--the 
26th, 27th study was done--and finally something began to 
happen.
    Like applying new technology, I don't think we have to wait 
until a Cerritos, California occurs where two planes crash in 
the air before we put traffic collision avoidance systems, 
TCAS, on aircraft. I don't think we have to wait for another 
fog on an airport runway and aircraft to run into each other on 
the ground before we implement precision runway monitoring. 
That is the way safety has been done. New regulations are 
written in blood. Those who have died scream out for change.
    Twelve hours of sleep, and then say, Well, you can go fly 
for 12 hours. About that 8th or 9th hour--you say there are 
crew rests and you can nap on board. You take a nap, you come 
back, it takes a little while. You are still groggy, your body 
is not functioning properly. I don't think that is a 
substitute. I mean, you go back and look at the R.R. Rosa study 
on napping and alert--napping at home and alertness on the job. 
That is a very compelling argument against short cycles of 
sleep. I will leave it there.
    Mr. Costello. The Chair thanks the Chairman of the Full 
Committee, and would ask are there other Members who have 
additional questions?
    Mr. Petri. I had one question. I would wonder if the panel 
could quickly respond. I don't think you would have to 
elaborate much. There is a 60-day comment period on this. We 
have had this hearing, and it is something if we are going to 
address it, I think it may worthwhile to do what is necessary 
to get it as right as possible. And so I am just asking whether 
the 60 days do you feel is adequate? I am not looking for a 
delay for the sake of delay, but if that is adequate, or if you 
feel that some different time period for the comments and so on 
would make more sense. Does anyone on the panel?
    Mr. Prater. Certainly. The Airline Pilots Association 
believes that the 60 days is adequate, and we will respond to 
the FAA within that 60 days.
    Mr. Alterman. If I may, it actually creates a problem. 
There is significant modeling to be done, and we are in the 
process of starting that. The whole process has become somewhat 
complicated because of the Safety Act that was passed and 
requires carriers by October 31 to submit a fatigue risk 
management plan to the FAA. And we are in the process of--our 
carriers are in the process of developing those plans.
    The problem we have with a 60-day response period is the 
same people who are working all day trying to put together that 
plan to be submitted by October 31 are the exact same people 
that we need to have that are available to us to respond to 
this. So we are in a little bit of a bind. I think 60 days is 
not going to be sufficient for our purposes. If that is what 
the time is, we will submit something in 60 days, but it really 
isn't sufficient.
    Mr. Costello. What would be?
    Mr. Alterman. Well, I would like to say 120 days. That gets 
us over the Christmas holidays, and I am not sure we will get 
much production over that. I think another 30 days will be 
sufficient just so we can get passed the fatigue risk 
management plan. But we will do whatever is necessary and 
whatever is required.
    Mr. Brooks. Mr. Petri, I put in my written testimony 
comments about 120 days. So that is what we submitted. As you 
may be aware, I think there is some 50, 5-0, areas in which the 
agency has asked for comment in the document, and it is very, 
very full. And our carriers are in some cases very much like 
the cargo carriers in terms of the ability to have resources to 
work on them. We have no interest in delay. We just want to 
make the process as robust as possible and make sure we can put 
in comments to the docket that are responsive. So, I back up 
our written testimony which asks for 120 days.
    Mr. Costello. I thank Mr. Petri for the question. And let 
me say that, frankly, we have no tolerance for any more than 60 
days. This is not an issue that came up overnight. This is an 
issue that has been discussed for 20 years. In fact, Mr. 
Alterman, if your team is doing one thing and then has to move 
over and address this, I suggest that you go out and get some 
outside expertise to help you so that you can comply within the 
60-day period. I would be extremely disappointed and see no 
reason why we should have to go over 60 days. This is an issue 
that everyone at this table and everyone in the industry has 
discussed, thought about, and we know who in fact is attempting 
to address this quickly and we know that there are reasons why 
others do not want it addressed.
    I would just suggest to you that we stick to the 60 days, 
and I believe that that is adequate time. If you calculate how 
many hours there are in a day and take that times 60, I think 
that is adequate time to comment on the 50 items that were made 
reference to.
    Mr. Oberstar. Would you yield, Mr. Chairman?
    Mr. Costello. I would yield to the Chairman of the 
Committee.
    Mr. Oberstar. Some years ago, quite a few years ago, Mr. 
DeFazio and I introduced a bill, waited for the appropriate 
time, H.R. 14. That was the number of years that flight 
attendants had been waiting for a decision on flight and duty 
time for flight attendants. It was also the number of hours 
that flight attendants, on average, were asked to be on duty 
with flight time included in that period.
    Our Committee staff just pulled out the hearing, 1993, the 
hearing on the legislation to provide for the duty-time 
limitations of flight attendants, 17 years.
    I have no tolerance for ``We need another 30 days or 60 
days, or whatever time. You know what needs to be done. Get 
your people together and do it. Safety of the public is at 
stake. Safety of your pilots is at stake. There is no excuse 
and no tolerance for delay. You have had this on your agenda, 
as Mr. Costello said, for 20 years. Longer than that even. 
Let's get it done.
    Mr. Costello. The Chair thanks Chairman Oberstar, and now 
recognizes the gentleman from California, Mr. Garamendi.
    Mr. Garamendi. Mr. Chairman, I didn't get my full 8 hours 
of sleep last night and my coffee hasn't kicked in, so I have 
asked Mr. Boccieri if he could ask my question.
    Mr. Boccieri. Thank you.
    I just wanted to know, and actually both of us were 
speaking here and we just wanted to know if there was any 
objection from the companies, from the air carriers themselves, 
of raising the crew rest period from between 10 and 12 hours to 
make it consistent with some other aviation, namely, the 
military?
    Mr. Hendricks. Congressman, I will speak to that. We have 
started our analysis of the rule, and we will be happy to 
specifically address that question and respond on the record 
once we complete some of that analysis.
    Mr. Boccieri. I would like a comment for the record. I 
mean, just to quote the Air Force regulation as well. It says: 
A minimum of 12 hours of crew rest period before the flight-
duty period begins is to ensure that the air crew member is 
adequately rested before performing flight or flight-related 
duties. Crew rest is free time, which includes time for meals, 
transportation, and rest, and must include 8 hours of 
uninterrupted sleep.
    Mr. Hendricks. Thank you. We will be happy to provide a 
response, as I said. And I would also like to add that, as a 
former airline pilot for nearly 23 years, I had many of those 
nights that did not accomplish 12 hours of uninterrupted rest, 
and was able to operate safely and without having perceived 
myself to be fatigued.
    Mr. Boccieri. That is true. And there are times where there 
has been delay, and I think that cushion was put in there so 
that there would be adequate time in those circumstances.
    Captain Prater, if you can tell me, when does a flight duty 
actually end? The minute you walk off the airplane?
    Mr. Prater. Under the current rules, 15 minutes after you 
set the parking brake. That is why we are advocating for the 
proposal that the FAA has laid out there that the rest time 
would start after you got to your rest facility.
    As to your first issue, sir, we would say that while more 
is better in a lot of things like retirement and wages, there 
are unintended consequences that could creep into it. If an 
airman had to spend another 3 or 4 days on the road during 
their schedule, that 12 hours might not look as good. It has to 
be an entire scheme, and I think that is where the FAA has 
gone. Saying that, you know, a shorter time once in a while is 
OK, but it can't be night after night after night. So that is 
why we believe that the 9 hours behind the door is a good place 
to start, because we think--remember, that is the minimum. We 
will try to get the full 11 or 12, and in many cases it will.
    Mr. Boccieri. Does ALPA and the rest of the other unions 
accept the commuting rules?
    Mr. Prater. The issue of commuting that has been raised 
here, I will just say real quickly, first of all, with all due 
respect for all the work that has been done on this issue, 
commuting did not start nor will it end with these hearings. It 
is a fact of the transportation life.
    It is incumbent upon the pilot and his employer to ensure 
that the pilot is rested, regardless of what his transportation 
mode was to get to work. I believe that there has been some 
almost soul-searching, if you will, when you look for the 
reason of the most recent fatal accidents. And we do that each 
and every time. But we have to look at the big, big picture, 
and it is not just commuting.
    But pilot fatigue is caused by too many hours behind the 
stick and too, too few hours in the hotel. We believe that the 
issue of commuting must be addressed and will be addressed 
under the rule in the advisory circular adequately, and I think 
with a tripartite, if you will, between the certificated 
airmen, the company, and the FAA. Thank you.
    Mr. Costello. The Chair thanks the gentleman. And I thank 
our witnesses for testifying today. Unless there are other 
questions or comments, Chairman Oberstar?
    Mr. Oberstar. Just a retrospective. I held up the Committee 
hearing from 1993 on H.R. 14. I will just quote from my opening 
statement.
    ``The effort to establish flight attendant duty-time 
limitation goes back many years, as far as 1978, when the FAA 
promised to have a regulation out by the end of the year. It is 
a good thing no one was holding their breath. As this hearing 
opens, we are still waiting for the 1978 rule.''
    I go on to talk about the petitions of flight attendants 
filed and the action undertaken. And I would just like to quote 
from Congressman Klinger's comment. He was the Ranking Member, 
the gentleman from Pennsylvania.
    ``Flight attendants deserve duty-time limitation. Without a 
doubt, their job requires more physical exertion than almost 
any other class of employees in the aviation industry that I 
can think of. It is unfortunate that they have been denied the 
protections afforded by reasonable workplace standards, and 
that the traveling public has been denied the assurance that 
flight attendants are alert and prepared to cope with 
emergencies that may arise.''
    I cited 38,000 air carrier passengers over a 14-year period 
involving evacuations, severely ill, need oxygen administered, 
passing blood on board the aircraft. Flight attendants needed 
to address those needs.''
    And then there is a very telling comment by the gentleman 
from Illinois, Mr. Costello.
    ``The legislation calls for duty-time limits on actual time 
served. Other parties have called for duty limitation placed on 
scheduled time. My concern is for the safety of our commercial 
airline system. Under scheduled duty limits, I fear flight 
attendants would be working under greatly fatigued 
circumstances due to unforeseen delays, weather, mechanical 
problems, and would be incapable of adequately responding to an 
emergency.''
    Mr. Chairman thank you for your prescience, for your 
consistency, for sticking to your last--and continuing that 
service. That underscores the need to proceed without delay and 
get this rulemaking accomplished and have a single standard of 
safety in the skies.
    Mr. Costello. I think with that, Ms. Gilligan, in 
particular, that you have a clear message to take back to the 
administrator that there is zero tolerance for any extension of 
this 60 days, as suggested by Mr. Alterman or Mr. Brooks, or 
anyone else. And I can assure everyone, including the families 
of the Colgan flight who are here and who consistently at their 
own expense continue to do what they believe is best and what 
is in the best interest of the flying public when it comes to 
safety.
    We appreciate you being here. We appreciate your vigilance 
and all of your input. And we will continue to monitor this 
issue and to make certain that the law that we just passed and 
was signed into law on August 1 of this year is in fact 
followed. And we look forward to seeing a rule that we believe 
and look forward to making a major difference when it comes to 
safety and fatigue in the industry. So we thank all of the 
witnesses for being here today.
    And, with that, the Committee stands adjourned.
    [Whereupon, at 1:17 p.m., the Subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T8300.048
    
    [GRAPHIC] [TIFF OMITTED] T8300.049
    
    [GRAPHIC] [TIFF OMITTED] T8300.050
    
    [GRAPHIC] [TIFF OMITTED] T8300.051
    
    [GRAPHIC] [TIFF OMITTED] T8300.052
    
    [GRAPHIC] [TIFF OMITTED] T8300.053
    
    [GRAPHIC] [TIFF OMITTED] T8300.054
    
    [GRAPHIC] [TIFF OMITTED] T8300.055
    
    [GRAPHIC] [TIFF OMITTED] T8300.056
    
    [GRAPHIC] [TIFF OMITTED] T8300.057
    
    [GRAPHIC] [TIFF OMITTED] T8300.058
    
    [GRAPHIC] [TIFF OMITTED] T8300.059
    
    [GRAPHIC] [TIFF OMITTED] T8300.060
    
    [GRAPHIC] [TIFF OMITTED] T8300.061
    
    [GRAPHIC] [TIFF OMITTED] T8300.062
    
    [GRAPHIC] [TIFF OMITTED] T8300.063
    
    [GRAPHIC] [TIFF OMITTED] T8300.064
    
    [GRAPHIC] [TIFF OMITTED] T8300.065
    
    [GRAPHIC] [TIFF OMITTED] T8300.066
    
    [GRAPHIC] [TIFF OMITTED] T8300.067
    
    [GRAPHIC] [TIFF OMITTED] T8300.068
    
    [GRAPHIC] [TIFF OMITTED] T8300.069
    
    [GRAPHIC] [TIFF OMITTED] T8300.070
    
    [GRAPHIC] [TIFF OMITTED] T8300.071
    
    [GRAPHIC] [TIFF OMITTED] T8300.072
    
    [GRAPHIC] [TIFF OMITTED] T8300.073
    
    [GRAPHIC] [TIFF OMITTED] T8300.074
    
    [GRAPHIC] [TIFF OMITTED] T8300.075
    
    [GRAPHIC] [TIFF OMITTED] T8300.076
    
    [GRAPHIC] [TIFF OMITTED] T8300.077
    
    [GRAPHIC] [TIFF OMITTED] T8300.078
    
    [GRAPHIC] [TIFF OMITTED] T8300.079
    
    [GRAPHIC] [TIFF OMITTED] T8300.080
    
    [GRAPHIC] [TIFF OMITTED] T8300.081
    
    [GRAPHIC] [TIFF OMITTED] T8300.082
    
    [GRAPHIC] [TIFF OMITTED] T8300.083
    
    [GRAPHIC] [TIFF OMITTED] T8300.084
    
    [GRAPHIC] [TIFF OMITTED] T8300.085
    
    [GRAPHIC] [TIFF OMITTED] T8300.086
    
    [GRAPHIC] [TIFF OMITTED] T8300.087
    
    [GRAPHIC] [TIFF OMITTED] T8300.088
    
    [GRAPHIC] [TIFF OMITTED] T8300.089
    
    [GRAPHIC] [TIFF OMITTED] T8300.090
    
    [GRAPHIC] [TIFF OMITTED] T8300.091
    
    [GRAPHIC] [TIFF OMITTED] T8300.092
    
    [GRAPHIC] [TIFF OMITTED] T8300.093
    
    [GRAPHIC] [TIFF OMITTED] T8300.094
    
    [GRAPHIC] [TIFF OMITTED] T8300.095
    
    [GRAPHIC] [TIFF OMITTED] T8300.096
    
    [GRAPHIC] [TIFF OMITTED] T8300.097
    
    [GRAPHIC] [TIFF OMITTED] T8300.098
    
    [GRAPHIC] [TIFF OMITTED] T8300.099
    
    [GRAPHIC] [TIFF OMITTED] T8300.100
    
    [GRAPHIC] [TIFF OMITTED] T8300.101
    
    [GRAPHIC] [TIFF OMITTED] T8300.102
    
    [GRAPHIC] [TIFF OMITTED] T8300.103
    
    [GRAPHIC] [TIFF OMITTED] T8300.104
    
    [GRAPHIC] [TIFF OMITTED] T8300.105
    
    [GRAPHIC] [TIFF OMITTED] T8300.106
    
    [GRAPHIC] [TIFF OMITTED] T8300.107
    
    [GRAPHIC] [TIFF OMITTED] T8300.108
    
    [GRAPHIC] [TIFF OMITTED] T8300.109
    
    [GRAPHIC] [TIFF OMITTED] T8300.110
    
    [GRAPHIC] [TIFF OMITTED] T8300.111
    
    [GRAPHIC] [TIFF OMITTED] T8300.112
    
    [GRAPHIC] [TIFF OMITTED] T8300.113
    
    [GRAPHIC] [TIFF OMITTED] T8300.114
    
    [GRAPHIC] [TIFF OMITTED] T8300.115
    
    [GRAPHIC] [TIFF OMITTED] T8300.116
    
    [GRAPHIC] [TIFF OMITTED] T8300.117
    
    [GRAPHIC] [TIFF OMITTED] T8300.118
    
    [GRAPHIC] [TIFF OMITTED] T8300.119
    
    [GRAPHIC] [TIFF OMITTED] T8300.120
    
    [GRAPHIC] [TIFF OMITTED] T8300.121
    
    [GRAPHIC] [TIFF OMITTED] T8300.122
    
    [GRAPHIC] [TIFF OMITTED] T8300.123
    
    [GRAPHIC] [TIFF OMITTED] T8300.124
    
    [GRAPHIC] [TIFF OMITTED] T8300.125
    
    [GRAPHIC] [TIFF OMITTED] T8300.126
    
    [GRAPHIC] [TIFF OMITTED] T8300.127
    
    [GRAPHIC] [TIFF OMITTED] T8300.128
    
    [GRAPHIC] [TIFF OMITTED] T8300.129
    
    [GRAPHIC] [TIFF OMITTED] T8300.130
    
    [GRAPHIC] [TIFF OMITTED] T8300.131
    
    [GRAPHIC] [TIFF OMITTED] T8300.132
    
    [GRAPHIC] [TIFF OMITTED] T8300.133
    
    [GRAPHIC] [TIFF OMITTED] T8300.134
    
    [GRAPHIC] [TIFF OMITTED] T8300.135
    
    [GRAPHIC] [TIFF OMITTED] T8300.136
    
    [GRAPHIC] [TIFF OMITTED] T8300.137
    
    [GRAPHIC] [TIFF OMITTED] T8300.138
    
    [GRAPHIC] [TIFF OMITTED] T8300.139
    
    [GRAPHIC] [TIFF OMITTED] T8300.140
    
    [GRAPHIC] [TIFF OMITTED] T8300.141
    
    [GRAPHIC] [TIFF OMITTED] T8300.142
    
    [GRAPHIC] [TIFF OMITTED] T8300.143
    
    [GRAPHIC] [TIFF OMITTED] T8300.144
    
    [GRAPHIC] [TIFF OMITTED] T8300.145
    
    [GRAPHIC] [TIFF OMITTED] T8300.146
    
    [GRAPHIC] [TIFF OMITTED] T8300.147
    
    [GRAPHIC] [TIFF OMITTED] T8300.148
    
    [GRAPHIC] [TIFF OMITTED] T8300.149
    
    [GRAPHIC] [TIFF OMITTED] T8300.150
    
    [GRAPHIC] [TIFF OMITTED] T8300.151
    
    [GRAPHIC] [TIFF OMITTED] T8300.152
    
    [GRAPHIC] [TIFF OMITTED] T8300.153
    
    [GRAPHIC] [TIFF OMITTED] T8300.154
    
    [GRAPHIC] [TIFF OMITTED] T8300.155
    
    [GRAPHIC] [TIFF OMITTED] T8300.156
    
    [GRAPHIC] [TIFF OMITTED] T8300.157
    
    [GRAPHIC] [TIFF OMITTED] T8300.158
    
    [GRAPHIC] [TIFF OMITTED] T8300.159
    
    [GRAPHIC] [TIFF OMITTED] T8300.160
    
    [GRAPHIC] [TIFF OMITTED] T8300.161
    
    [GRAPHIC] [TIFF OMITTED] T8300.162
    
    [GRAPHIC] [TIFF OMITTED] T8300.163
    
    [GRAPHIC] [TIFF OMITTED] T8300.164
    
    [GRAPHIC] [TIFF OMITTED] T8300.165
    
    [GRAPHIC] [TIFF OMITTED] T8300.166
    
    [GRAPHIC] [TIFF OMITTED] T8300.167
    
    [GRAPHIC] [TIFF OMITTED] T8300.168
    
    [GRAPHIC] [TIFF OMITTED] T8300.169
    
    [GRAPHIC] [TIFF OMITTED] T8300.170
    
    [GRAPHIC] [TIFF OMITTED] T8300.171
    
    [GRAPHIC] [TIFF OMITTED] T8300.172
    
    [GRAPHIC] [TIFF OMITTED] T8300.173
    
    [GRAPHIC] [TIFF OMITTED] T8300.174
    
    [GRAPHIC] [TIFF OMITTED] T8300.175
    
    [GRAPHIC] [TIFF OMITTED] T8300.176
    
                                    

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
